     Department of Homeland Security

     ��������������������������



   The City of Jacksonville, Florida, Successfully 

Accounted for and Expended FEMA Public Assistance 

    Grant Funds Awarded for Tropical Storm Fay 





OIG-14-51-D                              March 2014

                         O.l'HCE OF JNSPRCTOR GENER.-\.L
                                     Depar1ment of Homeland Security
                                      Washington. DC 20528 :' www.olg.t.lh~.gnv


                                             IV:."'\i
                                             "   ' !J·.   1, 9 <..~014

MEMORANDUM FOR:                      Major P. (Phil) May




FROM:
                                     A ·        n~ or General
                                     6ffiee of"Emergency Management Oversight

SUBJECT:                             The City ofJacksonville, Florida, Successfully Accounted for
                                     and Expended FEMA Public Assistance Grant Funds
                                     Awarded for Tropical Storm Fay
                                     FEMA Disaster Number 1785-DR-Fl
                                     Audit Report Number OlG-14-51-D

We audited Public Assistance funds awarded to the City of Jacksonville, Florida (City)
(FIPS Code 031-35000-00). Our audit objective was to determine whether the City
accounted for and expended Federal Emergency Management Agency (FEMA) grant
funds according to Federal regulations and FEMA guidelines.

The City received a Public Assistance award of $11.7 million from the Florida Division of
Emergency Management (State), a FEMA grantee, for damages resulting from Tropical
Storm Fay, which occurred in August 2008. The award provided 75 percent FEMA
funding for debris removal; emergency protective measures; and permanent repairs to
buildings and otherfacilities.' The award consisted of 91arge projects and 29 small
          2
projects.

We audited five large projects with awards totaling $10.5 million (see Exhibit, Schedule
of Projects Audited and Questioned Costs) for debris removal, emergency protective
measures, and repairs to roads. We limited our review of small projects to determining
whether (1) the City completed the projects and (2) another funding source covered the
project costs. The audit covered the period from August 18, 2008, to November 26,
2013, during which the City claimed $10.0 million of costs under the projects we
reviewed. At the time of our audit, the City had completed work on all projects in our


' FEMA reimbursed Projects 554 and 695 ~t llO percent federal costs share under a fEMA Public
A>si>tance debris removal pilot program.
'· Federal regula lions in effect at the time of dis~stcr set the large project threshold at 560,900.
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

   audit scope and had submitted final claims to the State for expenditures under those
   projects.

   We conducted this performance audit between August 2013 and February 2014
   pursuant to the InspectorfGeneralfActfoff1978, as amended, and according to generally
   accepted government auditing standards. Those standards require that we plan and
   perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based upon our audit objective. We believe that
   the evidence obtained provides a reasonable basis for our findings and conclusions
   based upon our audit objective. To conduct this audit, we applied the statutes,
   regulations, and FEMA policies and guidelines in effect at the time of the disaster.

   We reviewed judgmentally selected project costs (generally based on dollar value);
   interviewed City, State, and FEMA personnel; reviewed the City’s procurement policies
   and procedures; reviewed applicable Federal regulations and FEMA guidelines; and
   performed other procedures considered necessary to accomplish our audit objective.
   We also notified the Recovery Accountability and Transparency Board of all contracts
   the subgrantee awarded under the grant to determine whether the contractors were
   disbarred or whether there were any indications of other issues related to those
   contractors that would indicate fraud, waste, or abuse. We did not assess the adequacy
   of the City’s internal controls applicable to its grant activities because it was not
   necessary to accomplish our audit objective. However, we gained an understanding of
   the City’s method of accounting for disaster-related costs and its policies and
   procedures for administering activities provided for under the FEMA award.


                                      RESULTS OF AUDIT
   �
   The City generally accounted for and expended FEMA funds according to Federal
   regulations and FEMA guidelines. However, the City claimed $49,949 (Federal share
   $39,959) of ineligible costs, which consisted of $28,865 of ineligible contract equipment
   costs, and $21,084 of debris removal costs covered by the Federal Highway
   Administration.

   Finding A: Ineligible Contract Costs

   The City claimed $28,865 of ineligible contract equipment costs under debris removal
   Project 554. Federal cost principles at 2 Code of Federal Regulations (CFR), Part 225,f
   CostfPrinciplesfforfState,fLocalfandfIndianfGovernments, Appendix A, Section C.1.a., state
   that costs under Federal awards must be both reasonable and necessary. In addition, 44
   CFR 13.36(b)(2) requires subgrantees to maintain a contract administration system that
   ensures contractors perform in accordance with the terms, conditions, and


www.oig.dhs.gov                                2                                      OIG-14-51-D

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

   specifications of their contracts or purchase orders. A debris removal contractor billed
   the City $85,408 for use of bucket trucks and transport vehicles based on hourly rates of
   $169.20 and $135.00, respectively. However, the contract specified that hourly rates
   were $110.00 for the bucket trucks and $72.00 for the transport vehicles. Based on the
   contracted rates, the contractor should have billed the City $56,543 for the equipment,
   or $28,865 less than it billed. The overbilling occurred because the City did not properly
   review the contractor’s invoices for adherence to the contracted hourly rates.
   Therefore, we question the $28,865 as ineligible costs.

   City official disagreed with this finding saying that the contract equipment hourly rates
   included equipment only, and not the operator. However, the contract shows that the
   hourly rates included both equipment and operator costs. Therefore, our position
   remains unchanged.

   Finding B: Duplication of Benefits

   The City’s claim under Project 554 included $21,084 in duplicate benefits for debris
   removal activities for which the City received reimbursement from the Federal Highway
   Administration. According to Section 312 of the RobertfT.fStaffordfDisasterfRelieffandf
   EmergencyfAssistancefAct, as amended, no entity will receive assistance for any loss in
   which the entity has already received financial assistance from any other program,
   insurance, or any other source.

   The Federal Highway Administration reimbursed the City $893,404 for removing debris
   from Federal-aid roads. However, during closeout of the project, FEMA inadvertently
   reduced project costs by only $872,320, or $21,084 less than the amount reimbursed.
   Therefore, we question the $21,084 as ineligible, duplicate benefits.

   City officials disagreed with this finding saying that they did not receive duplicate
   benefits for debris removal costs. However, project documentation shows that FEMA
   did not properly credit the total costs that the Federal Highway Administration
   reimbursed the City.


                                     RECOMMENDATIONS

   We recommend that the Regional Administrator, FEMA Region IV:

   Recommendation #1: Disallow $28,865 (Federal share $23,092) of ineligible contract
   costs the City claimed under Project 554 (finding A).




www.oig.dhs.gov                                3                                       OIG-14-51-D

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

   Recommendation #2: Disallow $21,084 (Federal share $16,867) of ineligible duplicate
   benefits the City received under Project 554 (finding B).


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

   We discussed the results of our audit with City, State, and FEMA officials during our
   audit. We also provided a draft report in advance to these officials and discussed it at
   the exit conference held on February 7, 2014. City officials disagreed with our findings.
   We included their comments in the body of this report. FEMA and State officials
   reserved their comments until after we issue our final report.

   Within 90 days of the date of this memorandum, please provide our office with a
   written response that includes your (1) agreement or disagreement, (2) corrective
   action plan, and (3) target completion date for each recommendation. Also, please
   include the contact information of responsible parties and any other supporting
   documentation necessary to inform us about the current status of the
   recommendations. Until we receive and evaluate your response, we will consider the
   recommendation open and unresolved.

   Consistent with our responsibility under the InspectorfGeneralfAct,fwe will provide
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. We will post
   the report on our website for public dissemination.

   Major contributors to this report are David Kimble, Director; Adrianne Bryant, Audit
   Manager; Oscar Andino, Auditor-in-Charge; Amos Dienye, Auditor; and Omar Russell,
   Auditor Trainee.

   Please call me with any questions at (202) 254-4100, or your staff may contact
   David Kimble, Director, Eastern Regional Office, at (404) 832-6702.




www.oig.dhs.gov                                4                                       OIG-14-51-D

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security

                                                                                              Exhibit

                       Schedule of Projects Audited and Questioned Costs

                                           FEMA
Project                                   Category        Amount        Amount      Federal
Number             Project Scope          of Work         Awarded      Questioned    Share    Finding
  554     Debris Removal – Public Works      A           $ 9,149,316      $49,949   $39,959     A,B
  695     Debris Removal – Public Works      A               258,439            0         0
          Protective Measures - Public
  893                                        B              595,017             0         0
          Works
          Protective Measures -
 1492                                        B              320,004            0          0
          Emergency Operation Center
 921      Road Repairs - Public Works        C               213,980            0         0
TOTAL                                                    $10,536,756      $49,949   $39,959




www.oig.dhs.gov                                      5                                         OIG-14-51-D

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

                                                                              Appendix
                                        Report Distribution

   Department of Homeland Security
   Secretary
   Chief Financial Officer
   Under Secretary for Management
   Chief Privacy Officer
   Audit Liaison, DHS

   Federal Emergency Management Agency
   Administrator
   Chief of Staff
   Chief Financial Officer
   Chief Counsel
   Director, Risk Management and Compliance
   Audit Liaison, FEMA Region IV
   Audit Liaison, FEMA (G-13-012-EMO-FEMA)

   State
   State Auditor, Florida
   Executive Director, Florida Division of Emergency Management

   Office of Management and Budget
   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Recovery Accountability and Transparency Board
   Director, Investigations, Recovery Accountability and Transparency Board

   Sub grantee
   Audit Liaison, City of Jacksonville, Florida

   Congress
   Senate Committee on Appropriations, Subcommittee on Homeland Security
   Senate Committee on Homeland Security and Governmental Affairs
   House Committee on Appropriations, Subcommittee on Homeland Security
   House Committee on Homeland Security
   House Committee on Oversight and Government Reform
   House Committee on Transportation and Infrastructure




www.oig.dhs.gov                                   6                                 OIG-14-51-D

ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.”

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
